BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in In Re:
Courtney Wild, was sent via Three Day Service to the
U.S. Supreme Court, and Three Day and e-mail
Service to the following parties listed below, this 31st
day of August, 2021:
Brian H. Fletcher
Acting Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent

Paul G. Cassell
Counsel of Record
S.J. Quinney College of Law
at the University of Utah
383 S. University St.
Salt Lake City, UT 84112
(801) 585-5202
cassellp@law.utah.edu
Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

I further certify that a courtesy copy of the Petition
was sent via e-mail service to the following interested
persons listed below, this 31st day of August, 2021:
Martin G. Weinberg
Martin G. Weinberg, PC
20 Park Plaza, Ste. 1000
Boston, MA 02116
(617) 227-3700
ow lmgw@att.net
Roy Black
Black, Srebnick Kornspan & Stumpf, PA
201 Biscayne Blvd., Ste. 1300
Miami, FL 33131
(305) 371-6421
pleading@royblack.com
Counsel for Jeffrey Epstein

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 31, 2021.

Donna J. Wolf
Becker Gallagher Legal Publishin , Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

a{,,

JL-1/J-'V 3/, dOJ I

Jzrti~ JJ

Notary Public

f:Jl0lJp
V

[seal]

X)HN D. GALLAGHER
No!ary Public, State of Quo
My Commission Expires
February ·14, 2023

